Important Terms and Conditions for Credit Card Accounts
Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases
Your APR will be 10.50% to 17.90%. This APR will
vary with the market based on the Prime Rate and your
creditworthiness or other factors.

APR for Balance
Transfers

Your APR will be 10.50% to 17.90%. This APR will vary with the
market based on the Prime Rate and your creditworthiness or
other factors.

APR for Cash Advances
Your APR will be 10.50% to 17.90%. This APR will vary with the
market based on the Prime Rate and your creditworthiness or
other factors.

How to Avoid Paying
Interest on Purchases
For Credit Card Tips from
The Consumer Financial
Protection Bureau

Fees
Annual Fee
Transaction Fees
 Foreign
Transaction
Penalty Fees

Late Payment

Returned Payment

Your due date is at least 25 days after the close of each billing
cycle. We will not charge you interest on purchases if you pay
your entire balance by the due date each month.
To learn more about factors to consider when applying for or
using a credit card, visit the website of the Consumer Financial
Protection Bureau at
http://www.consumerfinance.gov/learnmore.

None
1% of each transaction in U.S. dollars.

$25
$25

How We Will Calculate Your Balance: We use a method called “average daily balance including new
purchases.” The full terms and conditions will be outlined in the Credit Card Agreement and Disclosure,
which will be sent to you with the new card(s).
The information about the costs of the card described in this application is accurate as of 04/07/2020.
This information may have changed after that date. To find out what may have changed, call us at
940.387-8585, 866.387.8585 or write to us at DATCU Credit Union, P.O. Box 827, Denton, TX
76202-0827.

Rev. 04/07/2020

